OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTH
AFRICA’S COMPLIANCE WITH
FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-674-06-006-P
March 30, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


March 30, 2006

MEMORANDUM

TO:                  USAID/South Africa, Mission Director, Carlene Dei

FROM:                RIG/Pretoria, Jay Rollins /s/

SUBJECT:             Audit of USAID/South Africa’s Compliance with Financial Audit
                     Requirements Regarding Foreign Recipients
                     (Report No. 4-674-06-006-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

The report has eight recommendations to help USAID/South Africa improve its financial
audit program with regard to foreign recipients. In response to the draft report, the
Mission concurred with seven of the recommendations. For Recommendation No. 1, the
Mission has implemented corrective actions to address this recommendation.
Therefore, we consider this recommendation to have received final action upon issuance
of this report.

For Recommendation Nos. 3, 4, 5, 7 and 8, the Mission concurred with the
recommendations, provided corrective action plans, and provided target completion
dates. We, therefore, consider that a management decision has been reached for these
recommendations. Please provide the Audit, Performance and Compliance Division
(M/CFO/APC) with evidence of final action in order to close the recommendations.

Although the Mission concurred with Recommendation No. 2, it requested that some of
the identified delinquent audits be removed from the list in Appendix III. The Mission did
not concur with Recommendation No. 6. A management decision can be reached for
Recommendation Nos. 2 and 6 when USAID/South Africa provides corrective action
plans and target completion dates, or evidence of the need to modify our findings and/or
recommendations. Please advise my office within 30 days of the actions you have
planned or taken to implement Recommendation Nos. 2 and 6.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
0027, Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/South Africa ensure that planned financial
audits of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

     Standard Statement of Work
     Not Used in Every Audit .............................................................................................. 7


Did USAID/South Africa ensure that annual audit plans
included all recipients from their award inventory
that required a financial audit? .......................................................................................... 8

     Awards Requiring Closeout Audits Need
     to be Included in Audit Plans....................................................................................... 9

     Host Country Contracts Need to be
     Included in Award Inventories ................................................................................... 11

Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16

Appendix III– List of Delinquent Audits as of December 31, 2005 ........................... 22

Appendix IV – List of Expired Awards Requiring Closeout Audits .......................... 23

Appendix V – List of Host Country Contracts Not in Award Inventories................. 25
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit to
determine whether USAID/South Africa effectively managed its financial audit program in
accordance with USAID policies and procedures for fiscal years 2003, 2004, and 2005.
(See page 2.)

USAID/South Africa did not effectively manage its financial audit program during the
period covered by the audit. Specifically, USAID/South Africa did not ensure that
planned audits of recipients were performed in a timely manner, delinquent audits were
followed up on and completed, or standard statements of work were used. To help
correct and strengthen these problem areas, we recommended that USAID/South Africa
1) develop and implement an audit tracking system to better monitor and ensure timely
submission of planned audits, 2) complete all identified delinquent audits, and 3) develop
a system to ensure that standard statements of work are included in future audit
agreements. (See pages 4 and 8.)

In addition, although USAID/South Africa prepared annual audit plans for fiscal years
2003-2005, those plans were incomplete. Specifically, the plans omitted required
closeout audits for 80 expired awards with amounts totaling $89.1 million. Further, the
Mission funded 26 host country contracts, totaling $7.9 million, which were not included
in the award inventories and were, therefore, not considered for inclusion in the audit
plans. Two of those contracts had expired and required closeout audits. We
recommended that USAID/South Africa 1) amend its Mission Order dealing with
recipient audits to ensure that expiring awards requiring closeout audits are included in
future audit plans, 2) complete all required closeout audits, 3) include identified host
country contracts in the current award inventory, 4) amend Mission procedures
regarding audits of host country contracts, and 5) have required closeout audits
performed for two expired host country contracts. (See pages 8 and 10.)

The report has eight recommendations to help USAID/South Africa improve its financial
audit program with regard to foreign recipients. In response to the draft report,
USAID/South Africa concurred with seven of the recommendations.                  For
Recommendation No. 1 the Mission has implemented corrective actions to address this
recommendation. We, therefore, consider this recommendation to have received final
action upon issuance of this report. For Recommendation Nos. 3, 4, 5, 7 and 8,
USAID/South Africa concurred with the recommendations, provided corrective action
plans and target completion date. We consider that a management decision has been
reached for these recommendations. (See pages 13, 17-22.)

Although the Mission concurred with Recommendation No. 2, it requested that some of
the identified delinquent audits be removed from the list in Appendix III. The Mission did
not concur with Recommendation No. 6, stating that, contrary to the finding, all Host
Country Contracts were included in the Mission’s award inventories. A management
decision can be reached for Recommendation Nos. 2 and 6 when USAID/South Africa
provides corrective action plans and target completion dates, or evidence of the need to
modify the findings and/or recommendations, to RIG/Pretoria. (See pages 13, 18 -19,
and 21.)




                                                                                        1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directive System (ADS) 591. This section of the ADS requires that USAID
missions, in consultation with the cognizant Regional Inspector General (RIG), ensure
that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits must be performed annually of all foreign for-profit
organizations performing under direct awards or cost reimbursable host country
contracts and subcontracts.1 To ensure that such audits are performed in a timely and
acceptable manner, Missions are required to develop annual audit plans which are
populated from inventories maintained by the Missions of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country owned local currency and activities in nonpresence
countries for use in determining audit requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG office and contracted by recipients using a standard statement of work. On
occasion, USAID missions may contract directly with an audit firm to conduct financial
audits of foreign recipients or locally-incurred costs of U.S.-based recipients. Audits of
USAID recipients are required to be performed in accordance with U.S. Government
Auditing Standards as well as the OIG’s Guidelines for Financial Audits Contracted by
Foreign Recipients. Missions must ensure that such audit reports are submitted to the
cognizant RIG office for review and issuance no later than nine months following the end
of the audited period.

USAID/South Africa is one of the USAID missions in the Eastern and Southern Africa
region with the largest number of recipients. In fiscal year 2005, the Mission had an
estimated 76 non-U.S.-based recipients. During fiscal years 2003-2005, USAID/South
Africa reported budget authorizations totaling $158 million for programs in:
     • Democracy and Governance
     • Education
     • Economic Capacity Building
     • Housing and Municipal Services
     • HIV/AIDS and Primary Health Care
     • Employment Creation.

1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.


                                                                                                         2
AUDIT OBJECTIVES
An audit of the Mission’s compliance with financial audit requirements regarding foreign
recipients was performed because Regional Inspector General/Pretoria’s (RIG/Pretoria)
experience is that USAID missions in eastern and southern Africa have generally not
been complying with Automated Directives System (ADS) 591 in terms of ensuring that
required financial audits of foreign recipients are conducted in a timely and acceptable
manner. To determine USAID/South Africa’s compliance with USAID rules and
regulations regarding financial audits of its foreign recipients, the audit was performed to
answer the following questions:

Objective No. 1: Did USAID/South Africa ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/South Africa ensure that annual audit plans included all
recipients from their award inventory that required a financial audit?

Refer to Appendix I for details of the audit scope and methodology.




                                                                                          3
AUDIT FINDINGS
Did USAID/South Africa ensure that planned financial audits of
foreign recipients were performed and submitted in accordance
with USAID rules and regulations?
USAID/South Africa did not ensure that all planned financial audits of foreign recipients2
were performed and submitted in accordance with USAID rules and regulations.

During the last three years, USAID/South Africa has made a great deal of progress
towards improving its recipient financial audit program. Reflecting a history of working
through numerous foreign implementing partners, USAID/South Africa has planned for
and submitted more recipient financial audits than any other mission in the region. Since
October 1, 2002, RIG/Pretoria has issued 32 financial audit reports of USAID/South
Africa recipients covering $47.5 million in expenditures of USAID funds. Those audits
included recommendations that addressed $23 million in questioned costs, 98 reportable
internal control weaknesses, and 194 instances of material noncompliance with
applicable laws and regulations.

While the above financial audit work has undoubtedly had a positive effect on
USAID/South Africa’s accountability over USAID funds expended by foreign recipients,
there were several areas in which USAID/South Africa could improve its recipient
financial audit program including timeliness, follow-up on delinquent audits, and use of a
standard statement of work.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional inspector General (RIG) no later than nine
months after the end of the audited period. Only 4 of 47 audits in USAID/South Africa’s
audit plans for fiscal years 2003 to 2005 were submitted to RIG/Pretoria within the
required timeframe. This occurred because USAID/South Africa had not developed a
system to track and follow up on planned audits. Also, the Mission experienced staffing
shortages in its Financial Management Office, and many audit reports had to be
corrected and resubmitted due to noncompliance with applicable standards and
guidelines. Audits that are not completed in a timely manner reduce USAID’s
accountability over funds awarded to recipients.

Automated Directives System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the

2
 For the purpose of this audit, foreign recipients include non-U.S.-based grantees and contractors who were
awarded grants, contracts or cooperative agreements.


                                                                                                         4
timeframe within which recipients must submit final audit reports to the cognizant USAID
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.

USAID/South Africa’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included 47 distinct planned financial audits of 24 different recipients. The breakdown of
the 47 audits is presented in Table 1 below.


                                          Table 1
                Recipient Audits in Annual Plans for Fiscal Years 2003-2005

                    Number of recipients               # of annual           Totals
                                                      audits in plans
                                1                            5                  5
                                1                            4                  4
                                4                            3                 12
                                8                            2                 16
                               10                            1                 10
                               24                                              47


Of the 47 planned audits, only 4 (8.5 percent) were submitted to RIG/Pretoria for review
and issuance on or before the required due date. Fifteen of these planned audits were
still outstanding as of December 31, 2005. On average, audit reports were submitted
201 days (approximately 7 months) after they were due.

The lack of timeliness was caused by several factors. One of the principal factors was
that the Mission had not developed or implemented an effective tracking system to
ensure that the planned audits were performed and submitted within the required
timeframe. As a result, not only were the majority of planned audits not submitted in a
timely manner, but many were not submitted at all. For example, only 32 of the 47
audits included in the Mission’s audit plans for fiscal years 2003, 2004, and 2005 had
been submitted to RIG/Pretoria as of December 31, 2005. The remaining 15 audits
(listed in Attachment III) had either not been performed, or, if performed, had not been
submitted to RIG/Pretoria.

Further evidence that USAID/South Africa lacked an effective follow-up system was
reflected by the fact that the Mission’s audit plans for fiscal years 2003-2005 included
more delinquent audits3 than current audits as shown in the following table. While the
table shows a total of 105 planned audits4, the majority of those were delinquent audits
that were listed multiple times in annual audit plans for two or more fiscal years.


3
  Audit reports that are not received by the cognizant RIG within the timeframe set forth under
paragraph 1.16 of the Guidelines for Financial Audits Contracted by Foreign Recipients are
considered delinquent audits.
4
  Although there was a total of only 47 distinct audits in the Mission’s audit plans for fiscal years
2003-2005, many of those audits were listed two or more times in the plans, bringing the total
number of audits listed in all three plans to 105.


                                                                                                   5
                                       Table 2
            Delinquent Audits from USAID/South Africa’s Annual Audit Plans

                                   FY 2003       FY 2004        FY 2005         Totals
 # of current audits in plan         10            15             12             37
 # of delinquent audits in plan      19            28             21             68
 Total # of audits in plan           29            43             33             105


Many delinquent audits were carried forward from one annual audit plan to the next. For
example, USAID/South Africa’s audit plan for fiscal year 2003 included an audit of fiscal
year 2002 expenditures by a ministry of the South African government under an 8-year,
$10.5 million USAID grant. The same plan also included two delinquent audits of the
same grant for fiscal years 2000 and 2001. All three audits were carried forward to the
Mission’s annual audit plan for fiscal year 2004 and again for fiscal year 2005. The
audits were eventually completed and all three reports were submitted at the same time
to RIG/Pretoria for final issuance in August 2005—respectively over 4, 3 and 2 years
overdue. The three audits collectively covered over $4.8 million in expenditures. The
audit reports questioned over $1 million of those expenditures and identified six internal
control weaknesses and twelve instances of material noncompliance with applicable
laws and regulations.

Annual audits for a number of other recipients were carried forward from one annual
plan to the next without being accomplished. In several situations, “catch up” audits
were performed that covered multiple years of expenditures by those recipients. As of
December 31, 2005, USAID/South Africa had 15 planned audits from fiscal years 2003-
2005 that were still delinquent. A list of the awards with delinquent audits is included as
Appendix III in this report.

Other contributing factors included staffing shortages in USAID/South Africa’s Financial
Management Office (as of December 31, 2005 there were 3 vacant positions) and audit
work that did not comply with applicable standards and regulations. This resulted in
audit reports received by RIG/Pretoria that often had to be sent back to the audit firms
for correction or additional work. Although these reports were eventually corrected and
resubmitted to RIG/Pretoria, the additional work required added to their lack of
timeliness. (The cause of substandard audit work will be addressed in the following
section of this report.)

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices have ceased operations,
making the determination and recovery of potential questioned costs difficult or
impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to help prevent
fraud, waste and abuse. Total estimated expenditures not audited on a timely basis
amounted to over $36 million.




                                                                                         6
For the mission to be able to submit timely audit reports to RIG/Pretoria, it must have a
system to monitor the status of planned audits and dedicated personnel to provide
interventions when targeted milestones are not being met. Therefore, we are making
the following recommendations:

   Recommendation No. 1: We recommend that USAID/South Africa develop and
   implement an audit tracking system to monitor the recipient financial audit
   process to ensure timely submission of reports to RIG/Pretoria. This system
   should, at a minimum, include controls to ensure that:
   • appropriate timing targets and milestones are set for each audit in the
      Mission’s current audit plan;
   • audit instructions are sent to recipients prior to the recipient’s fiscal year end
      requesting them to initiate the procurement for the audit;
   • periodic follow-up is performed to determine the implementation status of all
      planned audits; and
   • corrective actions are taken and documented for audits that are not
      progressing as planned.

   Recommendation No. 2: We recommend that USAID/South Africa obtain and
   submit all delinquent audit reports.


Standard Statement of Work
Not Used in Every Audit
Summary: Agency policy requires that audit agreements between recipients and
independent auditors contain a standard statement of work (SOW) that incorporates all
the requirements of the OIG Guidelines. Not all of the financial audits of USAID/South
Africa’s recipients contained a standard SOW that was reviewed and approved by the
Mission. This occurred because USAID/South Africa did not have a system to ensure
that all audit agreements incorporated standard SOWs. The lack of a standard SOW
has resulted in many audits being rejected by RIG/Pretoria due to lack of compliance
with applicable auditing standards and guidelines.

According to the OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(Guidelines), a mandatory reference in ADS 591, USAID missions must ensure that
audit agreements between USAID recipients and independent auditors include a
standard statement of work (SOW) containing all of the requirements of the Guidelines.
To ensure that this requirement is complied with, recipients must send all prospective
audit agreements to the cognizant USAID mission for approval prior to finalization, as
stated in paragraph 1.14 of the Guidelines.

According to RIG/Pretoria files, only 8 of the 32 planned audits that were submitted to
RIG/Pretoria were performed under agreements that contained a standard SOW. Six
out of the eight audits were Agency-contracted audits which, by their nature, entailed
extensive RIG oversight. During fiscal years 2003-2005, RIG/Pretoria performed 15
Quality Control Reviews (QCRs) of independent audit firms in South Africa that were
involved with various recipient-contracted audits.      We found evidence of audit
agreements that contained all the requirements of a USAID standard SOW in only 2 of
the 15 QCRs.


                                                                                          7
On January 10, 2006, RIG/Pretoria requested the Mission to provide evidence that, for
all audit reports submitted, the Mission had reviewed and approved audit agreements
between recipients and its auditors that contained USAID’s standard SOW. As of
February 15, no response had been received from the Mission.

The majority of recipient audits were not performed under agreements which included
the standard SOW because USAID/South Africa did not have a system in place to
ensure that all audit agreements were reviewed and approved by the Mission prior to the
commencement of the audits. Therefore, the Mission could not ensure that the standard
SOW was incorporated into those audit agreements.

Experience has shown that independent audit firms conducting USAID recipient audits
without a standard SOW typically perform “statutory” audit work in accordance with local
standards. Such audits do not address the unique fieldwork and reporting requirements
of USAID audits relating to such areas as testing expenditures for eligibility, allocability,
and compliance with U.S. laws and regulations. Financial audit requirements for USAID
recipients differ substantially from statutory audit requirements within South Africa.
Consequently, audits that are conducted without a Mission-approved agreement
containing the standard SOW, which refers to the audit requirements in the OIG
Guidelines, are less likely to be performed in accordance with U.S. Government Auditing
Standards and/or the OIG Guidelines. This was reflected in the large percentage of
recipient audit reports that RIG/Pretoria rejected due to lack of conformity with those
standards and guidelines. Of the 32 reports submitted to RIG/Pretoria, 16 (50 percent)
were initially rejected due to lack of compliance with applicable standards and
guidelines.

The review and approval of prospective audit agreements, and the inclusion of a
standard SOW in those agreements which references specific USAID audit
requirements, will help prevent audits from being performed that do not comply with U.S.
Government Auditing Standards and/or the OIG Guidelines. Once incorporated into the
audit agreement, the standard SOW becomes binding and should compel the audit firms
to comply with necessary USAID audit requirements. Therefore, we are making the
following recommendation:

   Recommendation No. 3: We recommend that USAID/South Africa develop and
   implement a system to ensure that the Mission reviews, approves and maintains
   a copy of an audit agreement containing a standard statement of work that
   incorporates USAID’s audit requirements for every recipient audit.


Did USAID/South Africa ensure that annual audit plans included
all recipients from their award inventory that required a financial
audit?
USAID South Africa did not ensure that annual audit plans included all recipients from
their award inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/South Africa developed award inventories for
fiscal years 2003, 2004, and 2005 which included the required information for each


                                                                                           8
award, including contractor/grantee name, type of organization, award number, amount
in U.S. dollars, start/completion dates, prior audits and period covered, receipt date for
required audits, dates for planned audits, and reason(s) for not including an award in the
annual audit plan. The Mission also developed an annual plan for each of those fiscal
years which included 47 distinct audits of foreign recipients receiving awards listed in
those inventories.

Although USAID/South Africa prepared the award inventories and related audit plans as
required, not all awards that required audits were included in the audit plans.

Awards Requiring Closeout Audits
Need To Be Included In Audit Plans
Summary: Agency policy requires that all awards in excess of $500,000 be subject to a
final closeout audit. The policy also states that annual incurred cost audits must be
accepted as fulfilling closeout audit requirements. USAID/South Africa’s annual audit
plans omitted 80 expired direct awards that required closeout audits. This occurred
because Mission officials were unaware that closeout audits were required. As a result,
$89.1 million in expenditures of USAID funds that should have been audited remains
unaudited.

Automated Directives System (ADS) 591.3.3.2 states that “Contract Information Bulletin
(CIB) 90-12 requires that all awards in excess of $500,000 be subject to a final close-out
audit.” This section of the ADS also states that annual audits, performed in accordance
with the “Guidelines for Financial Audits Contracted by Foreign Recipients” must be
accepted as fulfilling the close-out audit requirements for foreign nonprofit organizations.

The intent of CIB 90-12 was to ensure that awards5 that did not exceed the $300,000
threshold for requiring an annual audit, but that amounted to significant amounts of
expenditures on a cumulative basis, were audited to ensure proper closeout of the
award. The Mission’s award inventories included columns such as “Prior Audits & Dates
Covered” and “Reason not in Audit Plan.” The data from these columns provided
information as to the most recent annual audit prior to the recipient’s award completion
date. This information was used to determine whether a close-out audit was required for
a given recipient.

USAID/South Africa’s award inventories for fiscal years 2003, 2004, and 2005 included
68 recipients with 80 expired direct awards over the $500,000 threshold which were not
included in the Mission’s respective annual audit plans. According to the Mission’s
award inventory for fiscal year 2003 – 2005, these expired awards had no recent annual
audits prior to the recipient’s award completion date. Consequently, required closeout
audits were not required for those awards. A list of the 81 awards requiring closeout
audits is included as Appendix IV in this report. The following table presents the aging of
the unaudited expired awards as of December 31, 2005. As shown in the table, the
majority of these awards expired more than five years ago, indicating that this has been
a long-standing problem that has improved during the more recent years.


5
 For the purpose of this audit, awards include grants, contracts, cooperative agreements, and
implementation letters.


                                                                                                9
                                      Table 3
                  Aging of Expired Awards Requiring Closeout Audits

     0-1 yr.           2-3 yrs.          4-5 yrs.         Over 5 yrs.         Total
       3                 14                15                48                80

Mission officials did not include these expired awards in annual audit plans because they
were unaware of the policy regarding closeout audits. The reasons listed in the
Mission’s award inventories for not including such awards in the annual audit plans
included statements such as “Fully Expended,” “Agreement Expired,” and “Estimated
Expenditure less than $300,000.” Also, USAID/South Africa’s Mission Order No.
591.002, which addresses recipient financial audits, did not include any procedures
regarding the planning or performance of closeout audits of awards exceeding $500,000.

As a result, 11 expired direct awards that should have received closeout audits remain
unaudited. The amount of USAID funding included in those awards totaled $89.1
million. Further, any expenditures that a recipient with an expired direct award may have
had under USAID-funded subawards during the same period should have also been
included in the closeout audit.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subjected to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations. Finally, because they were not included in
the Mission’s audit plans during the period they were due, such audits would not be
performed within the required timeframe. We are, therefore, making the following
recommendations:

   Recommendation No. 4: We recommend that USAID/South Africa amend its
   Mission Order No. 591.002 to ensure that closeout audits of expiring awards in
   excess of $500,000 are included in future audit plans and performed as required.

   Recommendation No. 5: We recommend that USAID/South Africa complete and
   submit audit reports for all expired awards requiring closeout audits.




                                                                                      10
Host Country Contracts Need To Be
Included in Award Inventories
Summary: Agency policy requires missions to maintain an inventory of all awards from
which annual audit plans may be developed. Agency policy also dictates that host
country contracts6 are subject to the same USAID audit requirements as direct contracts.
Twenty-six host country contracts, active during fiscal year 2003-2005, were not
included in the Mission’s award inventories for those years. This occurred because
Mission officials were not aware that host country contracts needed to be included in
award inventories, or that host country contracts were subject to USAID audit
requirements. As a result, 26 host country contracts, totaling $7.9 million in USAID
funds, were not considered for inclusion in the Mission’s annual audit plan for potential
financial audits and therefore, adequate oversight of USAID funds was diminished.

ADS 591.3.4.2 requires missions to “maintain an inventory of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country-owned local currency, and activities in nonpresence
countries for use in determining audit requirements.” Country Contracting Handbook
section 3.8 states that an audit of non-U.S.-based firms shall be a cost-incurred, financial
audit performed by the principal audit agency to the host country or an independent audit
agency acceptable to USAID Inspector General and as set forth in the Strategic
Objective Agreement (SOAG) or a SOAG Implementation Letter. It further adds that the
Guidelines should be followed in the selection of auditors and that the auditors should
observe the Guidelines in planning, conducting, and reporting the results of the audit.
Moreover, section 3.9 of the Country Contracting Handbook specifically states that “Final
payment to the contractor is withheld until the contractor provides evidence that it has
met all of its obligations under the contract and all required certifications (including
acceptance of the work by the Contracting Agency) have been executed and the
contract has been audited, as provided above. The USAID Activity Manager will be
notified of contract closeout and contract files will be maintained in storage at least three
years from the final disbursement under the SOAG.” (emphasis added)

RIG/Pretoria obtained a list of USAID-funded host country contracts from USAID/South
Africa that were active during the fiscal years 2003-2005. A comparison of this list to the
Mission’s award inventories revealed that 26 of the host country contracts, with amounts
totaling $7.9 million, were not included in the award inventories. A list of the 26
contracts appears as Appendix V in this report. Two of the 26 contracts had expired and
were over the $500,000 threshold for requiring a closeout audit.

This occurred because Mission officials were unaware that host country contracts should
have been included in the Mission’s award inventories and considered for potential
financial audits.




6
  ADS Glossary defines Host Country Contracting as “A means of program implementation in which USAID
finances, but is not a party to, contractual arrangements between the host country and the supplier of goods
and/or services.” ADS 301.5.1a states that when USAID decides to use host country contracting procedures
– it acts as financier and not a contracting party, reserving certain rights of approval and activity monitoring.


                                                                                                             11
Consequently, 26 host country contracts, with amounts totaling $7.9 million, were not
included in the Mission’s award inventories and, consequently, were not considered for
inclusion into the Mission’s annual audit plans for receiving potential financial audits.

To prevent the omission of host country contracts from the Mission’s award inventories
in the future, we are making the following recommendations:

   Recommendation No. 6: We recommend that USAID/South Africa include all
   identified host country contracts in its award inventory for fiscal year 2006.

   Recommendation No. 7: We recommend that USAID/South Africa amend
   Mission Order 591.002 to include procedures for including host country contracts
   in award inventories and annual audit plans, as appropriate.

   Recommendation No. 8: We recommend that USAID/South Africa complete and
   submit closeout audits for the two expired host country contracts with
   expenditures over $500,000 as required in Section 3.9 of the Country Contracting
   Handbook.




                                                                                      12
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/South Africa concurred with seven of the eight
recommendations. For Recommendation No. 1, the Mission has implemented corrective
actions to address this recommendation. Therefore, we consider this recommendation to
have received final action upon issuance of this report. For Recommendation Nos. 3, 4,
5, 7 and 8, the Mission concurred with the recommendations, provided corrective action
plans and target completion dates. Therefore, we consider that a management decision
has been reached for these recommendations.

Although the Mission concurred with Recommendation No. 2, it requested that eight of
the sixteen7 delinquent audits identified in this report be removed from the list in
Appendix III citing the following reasons: a) USAID/South Africa has taken action on one
delinquent audit, b) three delinquent audits were for recipients with Fixed Amount
Reimbursement Agreements which have no audit requirement, c) one recipient’s annual
actual expenditures were less than the $300,000 audit threshold and d) a three
recipients were U.S.-based organizations whose audit requirements fall under the Single
Audit Act outlined in the Office of Management and Budget’s Circular A-133. However,
these recipients were included in the Mission’s audit plans. A management decision
may be reached when the Mission provides RIG/Pretoria with evidence that these eight
delinquent audits were not required per ADS 591, and upon subsequent correction of the
Mission’s audit plans.

The Mission did not concur with Recommendation No. 6, stating that all of the Host
Country Contracts identified in this report were included in the Mission’s award
inventories. USAID/South Africa recognizes that the audit support documentation
created some confusion due to the names of organizations and multiple Project
Implementation Letters for one organization. However, a management decision cannot
be reached, nor can we modify our finding and/or recommendation, until USAID/South
Africa provides RIG/Pretoria with evidence that these host country contracts were listed
in their award inventories.




7
 Appendix III lists 15 delinquent audits. USAID/South Africa’s management comments referred to
16 delinquent audits. The difference is due to one recipient with two different awards. ADS
591.3.2.1 requires a foreign recipient to have a single audit performed when it has expended over
$300,000 of USAID funds. This audit should include all awards from which those funds were
disbursed during the period audited.


                                                                                              13
                                                                             APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit in
accordance with generally accepted government auditing standards. The audit was
performed at the office of the Regional Inspector General in Pretoria, South Africa from
December 14, 2005 though February 15, 2006.

The audit covered financial audit requirements for USAID/South Africa’s awards to non-
U.S.-based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2003-2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report--the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   award inventories;
•   audit plans; and
•   mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed annual audit plans and
award inventories submitted to RIG/Pretoria for fiscal years 2003, 2004 and 2005 for
USAID/South Africa. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards that were not subject to



                                                                                       14
                                                                            APPENDIX I


an annual audit prior to the program completion date. The audit also included a review
of correspondence between RIG/Pretoria and the Mission regarding award inventories
and annual audit plans. We also requested additional information from the Mission
when required.

For materiality thresholds, we considered the following to be material:

•   timeliness of submission of audit reports - if the number of acceptable audit reports
    submitted after the 9-month due date was > 10 percent of the number of planned
    audits, we considered the lack of timeliness to be material;

•   delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material; and

•   completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results could be handled via email or telephone.




                                                                                      15
                                                                             APPENDIX II




MANAGEMENT COMMENTS


                                                   UNITED STATES GOVERNMENT
                                                      ACTION M E M O R A N D U M
DATE             :            March 6, 2006

TO              :             Jay Rollins, Regional Inspector General/Pretoria

FROM             :            Carlene Dei, Mission Director /s/

                              Management comments – Audit of USAID/South Africa’s
SUBJECT          :            Compliance with Financial Audit Requirements Regarding
                              Foreign Recipients (Report No. 4-674-06-xxx-P


The Mission would like to thank the Regional Inspector General’s Office for their work
on this audit, and for their recognition of the Mission’s achievements in greatly
improving the recipient financial audit program over the last three years. While the audit
report highlights a number of weaknesses that existed prior to three years ago, it also
shows the success of our efforts to create an audit division within the financial
management office, bring in additional staff, and the systems that have been put in place
to build capacity with our implementing partners and increase effectiveness and
accountability of USG funds.

The Mission has reviewed the subject audit report. The following is our management
response and comments:

Recommendation #1: We recommend that USAID/South Africa develop and
implement an audit tracking system to monitor the recipient financial audit process
to ensure timely submission of reports to RIG/Pretoria. This system should, at a
minimum, include controls to ensure that:
    • Appropriate timing targets and milestones are set for each audit in the Mission’s
       current audit plan;
    • Audit instructions are sent to recipients prior to the recipient’s fiscal year end
       requesting them to initiate the procurement for the audit;
    • Periodic follow-up is performed to determine the implementation status of all
       planned audits; and



                                                                                        16
                                                                               APPENDIX II


   •   Corrective actions are taken and documented for audits that are not progressing as
       planned.

Management Response:
USAID/ South Africa concurs with this recommendation. In recognizing the weakness in
monitoring the audit program an audit tracking system was subsequently put in place in
October 2004. This includes a regularly-updated audit tracking report, recipient letters,
periodic follow up and an action plan for those organizations that are delinquent or fail to
comply in a timely manner.


   •   Appropriate timing targets & milestones:
             USAID/South Africa has developed a tracking system that provides
             amongst other things, the timing targets and milestones for each audit in
             the Mission’s audit plan. The tracking system is filed on USAID Public
             Drive - P\:Audit Tracking System. This system is updated periodically to
             reflect changes and is kept as current as possible. A copy of the tracking
             system is hereon attached and labeled – attachment #1;

   •   Audit instructions to recipients:
              USAID/South Africa is sending letters to recipient notifying them of
              audits due at least four (4) months prior to the recipient’s fiscal year end.
              Audit instructions are clearly stated in the letter. A copy of the letter is
              hereon attached and labeled – attachment #2;


   •   Periodic follow-up is performed:
           USAID/SA performs follow-ups to recipients to determine whether the audit
           process has commenced. The audit tracking system is reviewed at least once a
           month by the Audit Management Officer, Deputy Controller and the Financial
           Analyst (audits) and a follow up via email is sent to those recipients that have
           not submitted audit reports on due dates. Copies of emails are attached as
           evidence and are labeled attachment #3;


   •   Corrective actions documented for audits that are not progressing as planned:
              Corrective actions for audits that are not progressing as planned have been
              documented and filed in the audit tracking system which is available on
              the USAID Public directory. On a monthly basis, the directory is printed
              and reviewed by the Deputy Mission Director and audit management staff.
              In accordance with our standard operating procedures, a lack of
              responsiveness from the recipient is elevated to the next level. See
              attachment #4.

Based on the corrective actions above, it is requested that the recommendation be closed
upon issuance of the final report.


                                                                                          17
                                                                             APPENDIX II



Recommendation #2: We recommend that USAID/South Africa complete and
submit all delinquent audit reports

Management Response:
USAID/South Africa concurs with this recommendation. We have made tremendous
progress in monitoring/following up on the delinquent audits. Of the sixteen delinquent
audit reports, two are US-based organizations, three are FARAs, and one did not meet the
threshold. The Mission is working to complete the remaining ten delinquent reports. The
following is the status of the audit reports cited as delinquent:

CA-674-0309-A-00-0038 (Education Opportunity Council) (one report listed):
The Mission has been working actively to ensure completion of this report. The audit
report was submitted on February 02, 2004 and rejected by the RIG/Pretoria on May 20,
2004. The auditors have been working with the RIG/Pretoria office to have all issues that
led to rejection of the report corrected. A revised draft audit report has been sent by the
auditors to the RIG/Pretoria (Emmanuel Qua-Enoo) on March 10, 2006 for review and
comment. The Mission is awaiting the final report that will be issued after review and
acceptance of corrections by the RIG/Pretoria.

Based on the above, it is requested that this report be removed from the list because
action has been taken by the Mission and is now in the hands of the RIG/Pretoria office.

CA-674-0322-G-SS-00-7045 (Joint Center for Political Studies) (two reports listed):
This is a US-based organization and falls under the A-133 single audit act.

Based on the above, the Mission requests that this report be removed from a list of
delinquent audit reports in question.

GA-674-0309-G-SS-2044 (Medical Education for South African Blacks - MESAB)
(three reports listed):
The Mission has and is following up with the recipient to have the audit submitted. The
closeout audit report is expected to reach USAID not later than September 30, 2006.

PIL-674-0323-5041-08 (SAQA) (one report listed):
This is a Fixed Amount Reimbursement Agreement and thus no audit is required.

Based on above, the Mission requests that the requirement for this audit report be
removed from the list of delinquent audit reports.

PIL-674-0309-5048-05 (National Youth Commission) (one report listed)
This is a Fixed Amount Reimbursement Agreement and thus no audit is required.

Based on above, the Mission requests that this report be removed from the list of
delinquent audit reports cited in the draft report.




                                                                                        18
                                                                               APPENDIX II


PIL-674-0309-5048-06 (National Youth Commission) (one report listed)
This is a Fixed Amount Reimbursement Agreement and thus no audit is required.

Based on above, the Mission requests that the report be removed from the list of
delinquent audit reports cited.

PIL-674-0315-5042 (Peninsula Technikon): The audit plan for each year is developed
using an estimated expenditure for the year. Pentech was included in the audit plan for
year 2003 based on anticipated expenditure. The actual expenditure for Pentech for audit
that was included in audit plan 2003 is $222,870.80, $77,129.20 less than the $300,000
audit threshold. This audit report is not delinquent because the audit threshold was not
exceeded.

Based on above, the Mission requests that the report be removed from the list of
delinquent audit reports cited in this recommendation. Please note, that because the
organization did expend more than $500,000 through the life of the agreement, a closeout
audit will be address in recommendation # 5.


CA/GA-674-A-00-01-00002 (Read Education Trust) (two reports listed):
The audit is in process. Report is expected at USAID/SA not later than April 30, 2006.

CA-674-0309-A-00-0039 (Desmond Tutu Trust) (one report listed)
A draft report has been received and a final report will be issued not later than April 30,
2006;

PIL-674-0315-5042-UDW (University of Durban Westville) (three reports listed):
The University has merged with the University of Kwa-Zulu Natal. The Mission will
include this audit in the Agency Contracted Audit of the University of Kwa-Zulu Natal
expected to commence in June 2006. The report is to be submitted to the RIG by
December 2006.

GA-674-0303-G-SS-4128 (USSALEP) (one report):
This is a US organization and falls under the A-133 Single Audit Act. Audits are a
responsibility of the US office and not the USAID/SA.

Based on above, the Mission requests that the report be removed from the list of
delinquent audit reports cited in the draft report.

The comments above constitute the USAID/ South Africa management response for
recommendation #2 of the draft audit report.

Recommendation #3: We recommend that USAID/South Africa develop and
implement a system to ensure that the Mission reviews, approves and maintains a
copy of an audit agreement containing a standard statement of work that
incorporates USAID’s audit requirements for every recipient audit.



                                                                                          19
                                                                             APPENDIX II



Management Response
USAID/ South Africa concurs with the recommendation. The Audit Tracking Systems
(attachment #1) ensures that the Mission reviews, approves and maintains a copy of an
audit agreement containing a standard statement of work that incorporates USAID’s audit
requirements for every recipient audit.

The Audit Management Office, at least (4) months prior to end of recipient’s financial
year end, sends out a notification to recipient that an audit of USAID funds will have to
be conducted. Included in this letter is a clause that requires that USAID’s standard
statement of work be used and that it be reviewed and approved by USAID. A copy of
the approved statement serves as an audit agreement and is kept on file in the USAID
audit management office for reference. See attachment #5 (emails with statement of
work and approval).

Based on above, it is requested that the issue be considered corrected and be closed upon
issuance of the final report.

Recommendation #4: We recommend that USAID/South Africa amend its Mission
Order No. 591.002 to ensure that closeout audits of expiring awards in excess of
$500,000 are included in future audit plans and performed as required.

Management Response
USAID/ South Africa concurs with the recommendation. The draft Mission Order that
ensures that closeout audits of expiring awards in excess of $500,000 are included in
future audit plans and are performed as required is being reviewed by Mission
management.. A final document will be issued out by May 30, 2006.

Recommendation #5: We recommend that USAID/South Africa complete and
submit audit reports for all expired awards requiring closeout audits.

Management Response
USAID/ South Africa concurs with the recommendation. An extensive review of the 92
awards listed as requiring closeouts showed that all but three (National Health Lab
Services, Peninsula Technikon, and Home Loan Guarantee Company) were over three
years old (many were significantly more than three years old). Of the three, the Home
Loan Guarantee Company is a US-based organization and not subjected to the same audit
requirement.

According to US government guidelines (included in ADS 502, Appendix 6a),
organizations are not required to maintain financial documentation more than three years.
This presents a problem in auditing organizations, especially those that go back five or
seven years. The mission recognizes the error that occurred in not requiring closeout
audits on each of these organizations. Fortunately, the error has been corrected during the
last three years and close-out audits are required for all organizations that expend more
than $500,000 for the life of the agreement.



                                                                                        20
                                                                              APPENDIX II



Regretfully, it is no longer viable to go back and attempt to audit the older projects. As
such, the Mission has made a decision to only complete closeout audits on those awards
that have expired within the last three years. We are currently in the process of
concluding close-out audits of National Health Lab Services, and Pennisula Technikon.
These close-out audits will be completed by December 2006.

Recommendation #6: We recommend that USAID/South Africa include all
identified host country contracts in its award inventory for fiscal year 2006.

Management Response
USAID/ South Africa does not concur with the recommendation. For the period that was
audited, Host Country Contracts were included in the award inventory. A review of the
audit support documentation revealed some confusion due to the names of organizations
(ie. The Department of Education was listed as National DoE in the Agreement, but
Department of Education in the Audit Inventory) or other factors (such as multiple PILs
for one organization). Each Host Country Contract was, in fact, included in the inventory.
The Mission respectfully requests the recommendation be removed.
(Documentation in support of the Mission’s position is available for review in the
Financial Management Office).

Recommendation #7: USAID/SA amend Mission Order 591.002 to include
procedures for including host country contracts in award inventories and annual
audit plans, as appropriate.

Management response:
USAID/ South Africa concurs with the recommendation. The draft Mission Order that
includes procedures for including host country contracts in award inventories and annual
audit plans is being reviewed by Mission management. A final document will be issued
out by May 30, 2006.

Recommendation #8: USAID/SA to complete and submit closeout audits for the two
expired host country contracts with expenditures over $500,000 as required in
Section 3.9 of the Country Contracting Handbook.

Management response:
USAID/ South Africa concurs with the recommendation. A letter requesting that a
closeout audit be performed will be sent to the two host country contractors referred to in
the draft report by March 30, 2006. The audit will be completed by December 2006.




                                                                                         21
                                                                                APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                    # of Days
            Award Number          Recipient’s        Total        Estimated          Between
                                  Fiscal Year     Amount of         Annual         Audit Report
                                      End           Award        Expenditures       Due Date
                                                  (in US $)       (in US $)8       and 12/31/05
    1
        CA-674-0309-A-00-0038        12/31/03      15,958,394          1,597,197               457
    2   CA-674-0322-A-00-7045∗       12/31/99       2,047,000            533,997             1,918
    3   CA-674-0322-A-00-7045*       12/31/00       2,047,000            302,022             1,553
    4   GA-674-0309-G-SS-2044*       12/31/01       1,933,600            921,619             1,187
    5   GA-674-0309-G-SS-2044*       12/31/02       1,933,600            302,022               822
    6   GA-674-0309-G-SS-2044        12/31/03       1,933,600            436,185               457
    7   PIL-674-0323-5041-08*         3/31/02       1,377,791            331,387             1,096
    8   PIL-674-0309-5048-05 &                        572,500
        PIL-674-0309-5048-06*          3/2/02         200,000            594,401             1,126
 9      PIL-674-0315-5042            12/31/03       1,733,534            309,139               457
10      CA/GA-674-A-00-01-00002       3/31/03       4,000,000                n/a               731
11      CA/GA-674-A-00-01-00002       3/31/04       4,000,000                n/a               365
12      CA-674-0309-A-00-0039         3/31/04      15,000,000                n/a               365
13      PIL-674-0315-5042-UDW        12/30/02       1,408,816            364,036               823
14      PIL-674-0315-5042-UDW        12/31/03       1,408,816                n/a               457
15      GA-674-0303-G-SS-4128        12/31/98       3,868,117                n/a             2,192




8
  Agreement numbers with no corresponding estimated expenditures are presented as they
appear in the Mission’s audit plans.
∗
  The award numbers were obtained from the Mission’s award inventory for fiscal year 2003.


                                                                                             22
                                                                          APPENDIX IV



  LIST OF EXPIRED AWARDS
REQUIRING CLOSEOUT AUDITS

                              Recipient’s   Total Amount    # of Days Between
      Award Number            Fiscal Year     of Award       Audit Report Due
                                  End         (in US $)     Date and 12/31/05

 1     GA-674-A-00-00-00029     02/28/02        1,133,378         1,126
 2   PIL-674-0315-5042/5073     12/31/04          531,638          457
 3   674-0309-G-SS-1016-01     4/30/2000        1,567,922         1,795
 4   GA-674-0301-G-SS-5062     3/31/2002          568,842         1,096
 5   GA-674-0301-G-SS-2089    10/31/1996          986,913         3,074
 6     674-A-00-01-00055-00    12/31/02         1,448,200          822
 7   GA-674-0301-G-SS-2009     3/31/1997          972,392         2,923
 8   GA-674-0301-G-SS-4095    10/31/1999        1,805,000         1,979
 9   GA-674-0301-G-SS-2061    12/31/1996        1,197,743         3,013
10   GA-674-0301-G-SS-4133    10/31/1998          831,750         2,344
11        PIL-674-0312C-010     09/30/04          877,851          183
12   GA-674-0314-G-SS-3038    11/30/1997        1,109,813         2,679
13   GA-674-0301-G-SS-4127     3/31/1997        1,120,500         2,923
14     674-A-00-01-00057-00    1/31/2005          630,000           58
15   GA-674-0302-G-SS-1057    10/31/1996        1,833,365         3,072
16   GA-674-0301-G-SS-4012     9/30/1997          655,582         2,739
17    CA-674-0312-A-00-6077    1/31/1999          500,000         2,252
18   GA-674-0305-G-SS-0047     6/30/1997          788,404         2,832
19   GA-674-0301-G-SS-4136    12/31/1996          844,178         3,013
20          674-A99-DCA-02      10/04/01          676,653         1,275
21   GA-674-0312-G-SS-2073     3/31/1997        2,500,000         2,921
22       674-02-DCA-LGA-01      10/15/03          800,000          532
23     674-G-00-01-00037-00    7/31/2003          544,473          608
24   GA-674-0301-G-SS-4174     2/28/1997        1,524,596         2,954
25    CA-674-0301-A-00-6080    6/30/1999        1,180,000         2,102
26    CA-674-0303-A-00-6074    9/30/1997          500,000         2,740
27   GA-674-0318-A-00-5029     9/30/1998        1,400,000         2,375
28    CA-674-0309-A-00-6075   12/31/1999        1,360,000         1,917
29    CA-674-0315-A-00-6073    6/30/2000        1,288,005         1,736
30   GA-674-0302-G-00-6063     6/30/1999        1,125,000         2,100
31   GA-674-0301-G-SS-4113     5/31/1999        1,998,593         2,132
32    CA-674-0301-A-00-6086    6/30/1999        3,000,000         2,100
33   GA-674-0303-G-SS-2048     9/30/1996        1,587,564         3,105
34        674-AA99-DCA-001     9/30/2002          905,000          914
35   GA-674-0312-G-SS-3073    10/31/1996        1,270,000         3,074
36   GA-674-0312-G-SS-3063     6/30/1997        1,299,475         2,831
37   GA-674-0318-G-SS-4190     3/31/1997          645,000         2,921
38    CA-674-0301-A-00-6080    6/30/1999          599,457         2,100
39   GA-674-0301-G-SS-4077    10/31/1996          524,694         3,074
40   GA-674-0305-G-SS-1021    10/31/1996        2,340,957         3,074
41   GA-674-0301-G-SS-5054     3/31/1997        1,350,000         2,923

                                                                                   23
                                                                           APPENDIX IV



                               Recipient’s   Total Amount    # of Days Between
       Award Number            Fiscal Year     of Award       Audit Report Due
                                   End         (in US $)     Date and 12/31/05

42    CA-674-0301-A-00-6079     5/31/1999        1,330,371         2,132
43   GA-674-0314-G-SS-3036      3/31/1997          850,000         2,923
44         674-AA01-DCA-001     7/28/2002          537,530         1,555
45   GA-674-0301-G-SS-5019      5/31/1998          818,147         2,497
46   GA-674-0301-G-SS-4147      1/31/1997          655,000         2,982
47      674-G-00-00-00068-00   10/15/2001          652,000         1,264
48    CA-674-0312-A-00-7036     6/30/1999          538,678         2,102
49    CA-674-0312-A-00-6072     12/1/2001          600,000         1,217
50   GA-674-0301-G-SS-4099      8/31/1999        2,339,261         2,040
51   GA-674-0312-G-SS-4165      9/30/1998        1,000,000         2,375
52         PIL-674-0315-5042    6/30/2003          777,143          641
53   GA-674-0314-G-SS-4070      5/31/1997          542,580         2,862
54         PIL-674-0315-5042    6/30/2003          536,646          639
55      PIL-674-0303-5046-32    3/31/2000          748,632         1,825
56   GA-674-0314-G-SS-4084      2/28/1998          675,000         2,587
57      PIL-674-0320-5053-12    3/28/2004        1,050,000          367
58    CA-674-0309-A-00-6044      1/5/2001        1,800,000         1,547
59   GA-674-0314-G-SS-4038      4/30/1998          925,000         2,528
60   GA-674-0301-G-SS-4177      3/31/1997        1,865,908         2,923
61    PIL-674-0315-P-5084-22     07/31/03          682,353          609
62   GA-674-0325-G-98-00051     5/30/2003          818,430          671
63   GA-674-0314-G-SS-4109     11/30/1997          690,000         2,679
64   GA-674-0309-G-SS-2046     12/31/1996          605,900         3,013
65   GA-674-0312-G-SS-3077      6/30/1998        2,000,000         2,467
66     GA-674-A-00-98-00057    10/15/2001          600,000         1,264
67   GA-674-0318-G-SS-4168     11/30/2001        4,500,000         1,218
68   GA-674-0303-A-98-00047     9/30/2001        2,971,082         1,279
69      674-G-00-03-00010-00     12/31/04          500,000           91
70      PIL-674-0323-5041-08    1/31/2000          593,161         1,886
71   GA-674-0312-A-00-00004     3/31/2001          500,000         1,461
72   GA-674-0314-G-SS-2071      2/28/1997        2,000,000         2,953
73   GA-674-0301-G-SS-4169     10/30/1997        1,442,283         2,709
74   GA-674-0312-A-00-00004     3/31/2003          500,000          730
75   CA-674-0321-A-98-00034      06/30/03          868,839          639
76   GA-674-0314-G-SS-4059     10/30/2000          700,000         1,613
77         PIL-674-0312C-010    6/30/2001          700,000         1,370
78      PIL-674-0315-5042-84   12/30/2003          649,625          456
79      PIL-674-0315-5042-62   12/31/2002          737,796          820
80   GA-674-0312-G-SS-4164      6/30/1998        1,000,000         2,467


            Total                               89,124,303




                                                                                    24
                                                     APPENDIX V



  LIST OF HOST COUNTRY
 CONTRACTS NOT IN AWARD
       INVENTORIES
                                Recipient’s
        Award Number          Fiscal Year End   Contract Amount
                                                   (In US $)
 1   PIL-674-0315-P-5084-22     12/31/2002                 938,227
 2   PIL-674-0322-P-4182-32     12/31/2001                 251,752
 3      PIL-674-0322-P-01       10/14/2001                 209,000
 4   PIL-674-0322-P-4182-31      3/31/2003                  33,351
 5    PIL-674-0323-5041-30       4/30/2003                 216,648
 6    PIL-674-0323-5041-18      12/31/2001                 366,145
 7    PIL-674-0302-5031-08      12/31/2002                  17,800
 8    PIL-674-0302-5031-08       3/31/2003                 232,200
 9    PIL-674-0302-5031-08       4/30/2002                 190,111
10   PIL-674-0315-5042-134       9/30/2005                 388,430
11    PIL-674-0323-5041-27       9/30/2005                 166,384
12    PIL-674-0323-5041-17       9/30/2005                 115,186
13    PIL-674-0323-5041-20      12/13/2002               3,487,740
14    PIL-674-0323-5041-19      12/31/2002                  79,800
15    PIL-674-0323-5041-16      12/31/2002                  33,284
16    PIL-674-0323-5041-31       4/30/2003                  96,516
17    PIL-674-0323-5041-31       4/30/2003                 120,200
18   PIL-674-0322-P-4182-33      6/30/2002                  11,662
19   PIL-674-0301-P-4182-39     12/31/2001                 171,429
20   PIL-674-0322-P-4182-33      6/30/2002                  11,662
21     PIL-674-0322A-P-11        1/31/2002                 132,529
22     PIL-674-0322A-P-19        6/30/2004                  76,501
23     PIL-674-0322A-P-19       12/31/2004                 117,194
24     PIL-674-0322A-P-19       12/31/2004                 208,174
25     PIL-674-0322A-P-19       12/31/2004                 259,789
26     PIL-674-0322A-P-19       12/31/2004                   8,398

             Total                                       7,940,114




                                                                  25
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
